August 1, 2000
Audit Report No. 00-033



Audit of Residual Interests from Asset
Disposition Decisions by Settlement and
Workout Asset Teams


 Material has been redacted from this
 document to protect personal privacy,
 confidential or privileged information.
Federal Deposit Insurance Corporation                                                                    Office of Audits
Washington, D.C. 20434                                                                       Office of Inspector General




   DATE:          August 1, 2000

   TO:            Mitchell Glassman, Director
                  Division of Resolutions and Receiverships



   FROM:          Sharon M. Smith
                  Assistant Inspector General

   SUBJECT: Audit of Residual Interests from Asset Disposition Decisions by Settlement and
            Workout Asset Teams (Audit Report No. 00-033)

   This report presents the results of the Office of Inspector General’s (OIG) audit of residual
   interests from Settlement and Workout Asset Team (SWAT) asset disposition decisions. The
   audit addressed whether the Federal Deposit Insurance Corporation (FDIC) monitored the SWAT
   decisions and received any residual interests in SWAT assets, if applicable. Initially, we
   intended to review the FDIC’s monitoring of Special Asset Resolution Group (SARG) decisions
   also. However, our review of SARG decisions disclosed that the SARG asset dispositions were
   generally low in dollar value compared to the SWAT actions sampled, involved cash settlements
   without residual interests, and were actively monitored by FDIC account officers. Accordingly,
   we limited the scope of our audit to SWAT decisions.


   BACKGROUND
                                                  1
   The Resolution Trust Corporation (RTC) implemented the SWAT program in April 1992 to
   evaluate distressed assets with complex, high-profile arrangements and develop strategies to
   maximize recoveries. The SWAT program operated in the RTC’s headquarters in Washington,
   D.C., and six field offices located in Atlanta, Georgia; Newport Beach, California; Dallas, Texas;
   Denver, Colorado; Kansas City, Missouri; and Valley Forge, Pennsylvania. Each office
   delegated authority to SWATs to resolve problem assets. SWATs included four people—a
   businessperson and an attorney from the private sector and two staff members from the RTC.
   SWATs developed asset disposition plans that included restructuring and refinancing complex
   loans, forgiving debt, and taking residual interests in anticipated cash flows or future sales of the
   underlying collateral.



   1
    As provided in the RTC Completion Act of 1993, the RTC went out of existence on December 31, 1995, and the FDIC
   took over its functions on January 1, 1996.
The RTC/FDIC Transition Task Force included the RTC’s SWAT program in its best practice
review and recommended implementation of the SARG program as an extension of the SWAT
program. SARGs consisted of a minimum of three FDIC employees who had authority to make
decisions at the field office level. Unlike SWAT, the use of outside business contractors and
outside legal counsel was optional. According to the recommendation, SARGs were to resolve
assets where more complicated SWATs were not necessary or cost effective. The task force
recommended that the FDIC continue the SARG program for inherited RTC assets and complex
and litigious FDIC assets. The task force left the use of SARGs to the discretion of the regional
directors. The FDIC adopted the task force’s recommendation and implemented the SARG
program in December 1995.

SWATs and SARGs were not designed to be asset managers. Instead, the members of those
groups made asset disposition decisions, which asset managers then implemented. SWATs and
SARGs recorded their decisions in case memoranda or asset disposition plans, which
documented authorized settlements, workouts, litigation, or bankruptcy proceedings. Day-to-day
asset monitoring responsibilities remained with the applicable account officer or asset
management contractor. Once the RTC/FDIC or its contractors implemented the specified
SWAT/SARG action, they sent the related documentation to the Corporation’s permanent files.


OBJECTIVES, SCOPE, AND METHODOLOGY

The audit objectives were to determine whether the FDIC monitored SWAT decisions and
received any residual interests in SWAT assets, if applicable. To accomplish our objective, we
interviewed Division of Resolutions and Receiverships (DRR) personnel located in the FDIC’s
headquarters and Hartford, Connecticut, and Dallas, Texas, offices to determine who was
responsible for monitoring SWAT decisions and where related records were stored.

We judgmentally selected a sample of seven SWAT actions encompassing 81 assets and totaling
$697.7 million for detailed review. We selected our sample from the only available master list,
dated November 1993, containing 1,305 assets with a book value of $7.7 billion. We selected
one SWAT action each from the Dallas, Texas; Denver, Colorado; Newport Beach, California;
and Valley Forge, Pennsylvania; field offices. We also selected three actions from the
Washington, D.C., headquarters office, which appeared to handle a majority of the largest SWAT
actions.

For each SWAT action in our sample, we requested DRR to provide copies of SWAT action
plans, case memoranda, and settlement and closing documents. Because DRR could not locate
many of the requested documents, we used the FDIC’s record storage and retrieval system to
search for the documents in off-site storage. We located some of the needed documents through
that process. For four of the sampled actions where we could identify borrowers, we contacted
the borrowers or servicers directly and obtained settlement and closing documents, tax returns,
partnership or corporate documents, and/or management representations concerning subsequent
sales and refinancings. We also reviewed documentation provided by the Division of Finance
(DOF) that supported the FDIC’s receipt of funds from the SWAT actions included in our
sample.
                                                2
For one SWAT action, we requested the borrower to provide property tax returns; financial
statements; financial investor documents; and closing documents on the sale, disposition, or
transfer. The FDIC held a residual interest in net cash flow and net sales proceeds on that
partnership property, and we requested an accounting of the FDIC’s residual interest in the
property. However, the borrower did not provide the financial investor documents or an
accounting of the FDIC’s residual interest. Accordingly, we calculated the FDIC’s residual
interest in net cash flow and net sales proceeds from the tax returns, financial statements, and
closing documents.

We did not evaluate DRR’s internal controls over SWAT assets because the OIG concluded that
it could meet the audit objectives more efficiently by conducting substantive tests rather than
placing reliance on internal controls. The OIG conducted the audit from March 1999 through
January 2000 in accordance with generally accepted government auditing standards.


RESULTS OF AUDIT

There is no indication that the FDIC monitored residual interests from closed SWAT actions
after the RTC closed on December 31, 1995. In addition, DRR could not locate an inventory of
SWAT actions other than the November 1993 master list that we located. Therefore, we believe
that the November 1993 list may not be a complete list of all SWAT actions. Moreover, DRR
did not maintain a list of residual interests resulting from SWAT actions, and the November
1993 list did not specify which actions contained residual interests. Our sample of seven SWAT
actions included

     •   a $135 million SWAT action for which DRR could not locate any records;

     •   two SWAT actions for which the FDIC did not receive $3,484,124 in residual interests;

     •   two SWAT actions with provisions for residual interests, but contingent events required
         to trigger the residual interests did not transpire; and

     •   two SWAT actions resulting in cash settlements without any residual interests.

Because there was no monitoring of residual interests from closed SWAT actions after the RTC
ceased operations, the FDIC has no assurance that it received all residual interests due from those
SWAT actions.


SWAT ACTIONS NOT MONITORED AFTER THE RTC CLOSED

There is no indication that the FDIC monitored residual interests in closed SWAT actions after
the RTC closed. DRR officials could not provide an inventory of SWAT actions. However, an
OIG search of RTC records obtained from off-site storage facilities located a “SWAT Master List
of Assets” dated November 30, 1993. That list provided the type and location of each asset as
                                                 3
well as the borrower, lending institution, and asset book value. Because the SWAT program
continued past November 1993, we believe the November 1993 list may not be a complete list of
all SWAT actions.

According to DRR officials, many of the RTC account officers and asset management
contractors responsible for monitoring the assets did not transition into the FDIC resulting in a
loss of the historical knowledge of the SWAT actions. Further, the Corporation either archived
the majority of the records relating to SWAT actions in off-site storage or could not find them.
In addition, there is no indication that DOF and DRR had procedures in place to monitor any
residual interests in the SWAT assets. According to a DRR senior internal review specialist,
SWAT assets resolved and closed out by the RTC before its sunset were not transitioned into the
FDIC. Accordingly, those assets did not appear on the FDIC’s asset tracking systems and DRR
officials did not have readily available records of those dispositions. DRR could not locate the
SWAT action plans for the seven sampled SWAT actions or a list of residual interests in SWAT
assets that required long-term monitoring.


NO ASSURANCE THAT THE FDIC RECEIVED ALL RESIDUAL INTERESTS DUE
FROM SWAT ASSET DISPOSITIONS

We were able to locate documentation such as action plans, case memoranda, and settlement and
closing documents for six of the seven actions in our sample. Neither the OIG nor FDIC could
locate any records for the remaining action, which had a book value of $135 million. For the six
actions where documentation was available, the FDIC did not receive residual interests totaling
$3,484,124 for two of the actions (actions number 5 and 7 in table 1). Two other actions
included residual interest provisions, but the contingent events required to trigger those
provisions did not occur. The remaining two actions were cash settlements with no residual
interest provisions. Table 1 shows the sampled actions.

Table 1: SWAT Actions Reviewed
Action       Book Value           Residual
Number        of Assets           Interest                            Comments
    1        $237,166,857        $        0      No residual interest—cash settlement.
    2         135,000,000         Unknown        Records could not be located.
    3         116,000,000                 0      Triggering event of residual interest did not occur.
    4          78,906,608                 0      Triggering event of residual interest did not occur.
    5          72,000,000            84,124      Net cash flow interest.
    6          50,786,703                 0      No residual interest—cash settlement.
    7           7,801,333         3,400,000      Missing collateral—pledged insurance policy.
Totals       $697,661,501        $3,484,124
Source: SWAT inventory dated November 30, 1993, and OIG analysis of SWAT records.



                                                   4
Residual Interests on Two SWAT Actions Not Collected

Contingent events triggered the residual interest provisions for two of the seven actions in our
sample. However, the FDIC did not receive the net cash flow payment or the life insurance
policy pledged as collateral on the residual note and was not aware that the two residual interests
were due.

The SWAT settlement for action number 5 shown in table 1 was between the borrower and the
RTC as receiver for Columbia Savings and Loan Association and involved four borrower-related
general partnerships. One of those general partnerships owned a 20-acre business complex
located in Orange County, California. The RTC transferred a Columbia partnership’s interest in
the business complex to a borrower-related general partnership. In exchange, the RTC received a
$2.35 million note and a 40-percent residual interest in net cash flow from operating the business
complex and net proceeds from the sale of the business complex.

The settlement documents included a residual interest agreement with formulas for determining
the FDIC’s residual interest in both the net cash flow and net sales proceeds. According to
information on the federal income tax returns provided by the borrower and another entity that
subsequently purchased the business complex, the FDIC should have received $84,124 in net
          2
cash flow. However, no evidence was available to show that the FDIC received the residual net
cash flow interest.

The SWAT settlement for action number 7 shown in table 1 involved restructuring an
$8.5 million outstanding principal loan balance, which included creating a residual interest. The
settlement created a $6.5 million installment note, $1.5 million installment note, and $3.4 million
residual interest note. The RTC immediately sold the $6.5 million note at a discount. It later
sold the other two notes to the RTC Mortgage Trust 1995-S/N2 (the Trust) in which the RTC
was a 51-percent owner. The servicer for the Trust subsequently accepted a $1 million payoff for
the $1.5 million note and released the collateral for both notes. In addition, the servicer
converted the $3.4 million residual interest note into an installment note maturing on July 29,
2001. That note became delinquent after one payment. The SWAT restructuring agreement
required the borrowers to use their best efforts to obtain and maintain life insurance on the
president of the borrowing entities. The agreement required insurance totaling the lesser of
$3.4 million or the outstanding principal balance of the residual interest note. According to a
vice president with the Trust’s servicer, the life insurance requirement would remain in effect
until the borrowers paid the entire principal.

We informed DRR of the life insurance requirement in August 1999. DRR issued a letter to the
servicer in September 1999 requesting that it make every effort to obtain the life insurance
policy. In a letter dated September 22, 1999, the servicer asked the borrowers whether they had
obtained the policy. As of March 9, 2000, the loan was still delinquent and the servicer had not
received a response from the borrowers. According to the servicer and DRR officials, they do
not expect the borrowers to willingly obtain the life insurance policy.

2
 Because encumbrances exceeded the selling price of the business complex, there were no net proceeds from the sale of
the property. Accordingly, the FDIC was not due any residual interest payment on net sales proceeds.
                                                          5
CONCLUSIONS AND RECOMMENDATIONS

There is no indication that the FDIC monitored residual interests in closed SWAT actions after
the RTC ceased operations. DRR officials could not provide an inventory of SWAT actions or
residual interests resulting from SWAT actions. Accordingly, there is no assurance that the
FDIC has received all residual interests due from SWAT assets. Although a large number of
high-dollar, high-profile assets were included in SWAT actions, much of the institutional
knowledge relating to those assets was lost when the RTC closed. Consequently, we concur with
DRR officials that locating SWAT action plans and identifying residual interests would be very
difficult. Accordingly, we are not making any recommendations regarding those assets but rather
are leaving it to FDIC management’s discretion regarding what, if any, action to take. However,
for two of the seven SWAT actions in our sample, we identified residual interests of $84,124 in
net cash flow on one and a $3.4 million life insurance policy pledged as collateral on the other.
Accordingly, we recommend that the Director, DRR, take the following actions:

     (1) Collect from the borrower-related general partnership $84,124 (questioned cost) in net
         cash flow residual interest (action number 5 in table 1).

     (2) Obtain from the installment note borrowers a $3.4 million life insurance policy pledged
         as collateral (action number 7 in table 1).

We provided borrower names and other specifics of the SWAT actions related to these two
recommendations to DRR during the course of our audit.


CORPORATION COMMENTS AND OIG EVALUATION

On July 25, 2000, the Associate Director, Internal Review, DRR, provided a written response to
a draft of this report. The Associate Director's response agreed with recommendation 1 and
disagreed with recommendation 2 in the draft report. Although the Associate Director’s response
disagreed with recommendation 2, DRR’s actions cited in the response met the intent of the
recommendation. Accordingly, the response provided the requisites for a management decision
on both recommendations. Appendix I to this report presents the Associate Director’s response.
A summary of the Associate Director’s response to recommendation 2 and our analysis follows.
We did not summarize the response to recommendation 1 because the actions planned or
completed are identical to those recommended. With respect to recommendation 1, the OIG has
provided DRR with records related to the global settlement and residual interest, legal documents
associated with the sale of Koll Center Orange, and partnership agreements and tax returns. We
will continue to work with DRR to provide the information needed to fully address our
recommendation.

Obtain from the installment note borrowers a $3.4 million life insurance policy pledged as
collateral (action number 7 in table 1) (recommendation 2): The Associate Director
disagreed with the recommendation. He stated that it appears the borrowers used their “best
efforts” to obtain the required life insurance policy, which met the requirements of the
agreement. During our audit, we notified DRR that the FDIC had sold the note to a trust and the
                                               6
servicer for the trust—not the FDIC—would have to obtain the life insurance policy.
Accordingly, DRR contacted the servicer who in turn attempted to obtain the life insurance
policy from the borrowers. Counsel for the borrowers responded that the borrowers had tried to
obtain the required life insurance coverage but were unsuccessful due to the age and medical
history of the principal to be insured. DRR’s attempt—through the servicer—to obtain the life
insurance policy met the intent of recommendation 2 and, accordingly, provided the requisites for
a management decision.

Appendix II presents management’s proposed actions on our recommendations and shows that
there is a management decision for each recommendation in this report.

Based on the audit work, the OIG will report questioned costs of $84,124 in its Semiannual
Report to the Congress.




                                               7
                                                                                             APPENDIX I

Federal Deposit Insurance Corporation
550 Seventeenth Street, N.W.                                                       Office of the Director
Washington, D.C. 20429                                        Division of Resolutions and Receiverships


                                                       July 25, 2000


   MEMORANDUM TO:                   Sharon M. Smith
                                    Assistant Inspector General




   FROM:                            Giovanni G. Recchia
                                    Associate Director (Internal Review)

   SUBJECT:                         Audit of Residual Interest from Asset Disposition
                                    Decisions by Settlement and Workout Asset Teams

   Thank you for the opportunity to respond to the referenced audit. We apologize for the
   delay in responding and we thank the OIG for their assistance in providing some of the
   documentation necessary for us to make a Management Decision on these
   Recommendations.

   Primarily, the delay in responding can be attributed to our efforts at researching the Koll
   Company transaction. There were a number of related and somewhat complex Koll
   transactions that were combined under the SWAT umbrella and involved in a global
   settlement during 1993. Because of the age and complexity of these assets, researching
   the history of the Koll settlement in order to arrive at a Management Decision was
   extremely difficult and time-consuming. The Koll settlement involves a large number of
   parties, including what appears to be five limited partnerships holding large properties
   with an underlying appraised value of approximately $200 Million.

   OIG RECOMMENDATION:

   Collect from the borrower-related general partnership $84,124 (questioned cost) in net
   cash residual (action number 5 in table 1).

   DRR RESPONSE:

   Based upon the information supplied by the OIG, DOF and it’s own research, DRR
   management agrees with the OIG Recommendation. DRR also agrees with the
   questioned cost of $84,124.

   It appears that income derived by the limited partnership, during calendar year 1994,
   should allow the FDIC to make a claim for recovery of the residual. Complicating the
   situation, however, is the complexity of the settlement agreement containing a crosshatch
   of indemnities and provisions which need to be further reviewed and analyzed from both
   a business and a Legal perspective.
                                                8
DRR will complete and document its initial review and decision regarding collection
efforts for this asset by year-end 2000. If litigation is required, it is unlikely that effort
will be completed before year-end 2001. These timeframes, however, are contingent
upon the continuing cooperation of the OIG in providing assistance and documentation
from their already completed research. Without the OIG’s assistance, DRR may need to
duplicate some of the extensive research already conducted in the process of developing
the OIG’s Audit Report.


OIG RECOMMENDATION:

Obtain from the installment note borrowers a $ 3.4 million life insurance policy pledged
as collateral (action 7 in table 1).

DRR RESPONSE:

Management disagrees with the OIG Recommendation and does not agree with the
associated amount of $3.4 million. DRR disagrees with the recommendation and the
amount of $3.4 million because DRR management feels that the parties have fulfilled
their responsibilities, in view of the language in the Loan Restructure Agreement
(“Agreement”), regarding obtaining life insurance on the life of [redacted].

The Agreement, dated December 30, 1992, had a number of provisions, one of which
stated that:

        [Redacted] shall use their best efforts to obtain and maintain insurance on the
        life of [redacted] with an insurance company licensed to do business in the
        Commonwealth of Virginia…in the face amount of the lesser of $3,400,000 or
        the outstanding principal balance of the Residual Note…”

It appears that the RTC did not obtain the referenced life insurance policy on [redacted]
during the period from the date of the Agreement in 1992, until the asset was sold by
RTC to Trust 1995 S/N 2 (Trust) on September 1, 1995. DRR is also unaware of any
attempt by the RTC, between 1992 and its dissolution, to initiate legal action to compel
the acquisition of the life insurance policy. It also appears that the RTC did not require
the escrow of any premium payments for the life insurance policy pursuant to the
settlement agreement. There also did not appear to be any effort to tie the insurance to a
“Key Officer” type of policy. Also, it is noted that [redacted] was not personally a party
to the restructuring and signed only in his capacity as a corporate officer.

The current Servicer for the Trust which owns the asset has recently attempted to obtain
the life insurance policy. The response to the Servicer’s request, provided by

Attorney [redacted] stated, in part:




                                              9
        “…Please be advised that [redacted] have made several attempts since 1992 to
        obtain life insurance coverage on the life of my father, [redacted], as required
        by the 1992 Loan Restructure Agreement as modified. These attempts have been
        unsuccessful due to his age and medical history…”

Based upon the historical background of this asset and the additional information
obtained to date, it appears that the “best efforts” language of the Agreement has been
met. It does not appear that DRR has further recourse or enforcement venue to obtain
the referenced life insurance on the life of [redacted].




cc: OICM
    Ms. Whited
    Mr. Eisenberg
    Mr. Hoffman




                                           10
                                                                                                                                                APPENDIX II

                                               MANAGEMENT RESPONSES TO RECOMMENDATIONS

The Inspector General Act of 1978, as amended, requires the OIG to report on the status of management decisions on its recommendations in its semiannual
reports to the Congress. To consider the FDIC’s responses as management decisions in accordance with the act and related guidance, several conditions are
necessary. First, the response must describe for each recommendation

     •   the specific corrective actions already taken, if applicable;
     •   corrective actions to be taken together with the expected completion dates for their implementation; and
     •   documentation that will confirm completion of corrective actions.

If any recommendation identifies specific monetary benefits, FDIC management must state the amount agreed or disagreed with and the reasons for any
disagreement. In the case of questioned costs, the amount that the FDIC plans to disallow must be included in management’s response.

If management does not agree that it should implement a recommendation, it must describe why it does not consider the recommendation valid.

Second, the OIG must determine that management’s descriptions of (1) the course of action already taken or proposed and (2) the documentation confirming
completion of corrective actions are responsive to its recommendations.

This table presents management’s responses on recommendations in our report and the status of management decisions. The OIG based the information for
management decisions on management's written response to our report.

                                                                                Expected     Documentation That                  Management
   Rec.                                                                        Completion    Will Confirm Final     Monetary      Decision:
  Number             Corrective Action: Taken or Planned / Status                 Date             Action           Benefits      Yes or No
         1     The Associate Director, Internal Review, DRR, agreed with        12/31/00    Settlement agreement.    $84,124          Yes
               the recommendation and stated that DRR will seek recovery
               of the questioned costs.
         2     The Associate Director, Internal Review, DRR, disagreed          07/25/00    Associate Director’s       $-0-           Yes
               with the recommendation. He stated that the borrowers used                   response.
               their best efforts to obtain the designated life insurance
               policy but could not do so because of the principal’s age and
               medical history. Although unsuccessful, DRR tried to obtain
               the policy through the loan servicer for the trust that
               purchased the loan. Accordingly, DRR met the intent of our
               recommendation.


                                                                                 11
